                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     The EPA Should
                     Improve Monitoring of
                     Controls in the Renewable
                     Fuel Standard Program
                     Report No. 13-P-0373               September 5, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Patrick Gilbride
                                                    Erin Barnes-Weaver
                                                    Luke Stolz
                                                    Stephanie Wake




Abbreviations

CAA            Clean Air Act
CFR            Code of Federal Regulations
EISA           Energy Independence and Security Act of 2007
EMTS           EPA Moderated Transaction System
EPA            U.S. Environmental Protection Agency
EPAct          Energy Policy Act of 2005
OECA           Office of Enforcement and Compliance Assurance
OIG            Office of Inspector General
OTAQ           Office of Transportation and Air Quality
QAP            Quality Assurance Plan
RFS            Renewable Fuel Standard
RIN            Renewable Identification Number


Cover photo:       Photos taken from the EPA’s Renewable Fuel Standard website:
                   http://www.epa.gov/otaq/fuels/renewablefuels/.




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:       OIG_Hotline@epa.gov                    write:    EPA Inspector General Hotline
  phone:       1-888-546-8740                                   1200 Pennsylvania Avenue, NW
  fax:         202-566-2599                                     Mailcode 2431T
  online:      http://www.epa.gov/oig/hotline.htm               Washington, DC 20460
                        U.S. Environmental Protection Agency                                                 13-P-0373
                                                                                                      September 5, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review              The EPA Should Improve Monitoring of Controls
The U.S. Environmental              in the Renewable Fuel Standard Program
Protection Agency Office of
Inspector General conducted          What We Found
an audit of the Renewable Fuel
Standard program as a result of     The EPA has worked with external RFS program stakeholders to develop
millions of dollars of              additional controls to reduce fraud in the program. The EPA has assessed risks
fraudulently generated              and implemented a number of control activities in the RFS program through
Renewable Identification            regulations. The main control activities we identified include independent third-
Numbers. We sought to               party engineering reviews, the EPA Moderated Transaction System, and attest
determine whether the EPA           engagements. However, the agency does not meet the control standard for
has assessed program risks          monitoring some of these control activities. The EPA does not track submission
and designed necessary              of third-party engineering reviews or annual attest engagements because the
controls in the RFS program.        agency lacks an electronic monitoring system for these reports. Until the EPA
RFS program regulations             tracks submitted materials, the agency cannot be sure that program participants
require that independent third      comply with applicable regulations, which affects program integrity and could
parties complete certain            lead to additional fraud cases. The EPA recently implemented electronic
reporting requirements.             reporting requirements for attest engagements and has stated that it intends to
                                    implement electronic reporting for engineering reviews by the end of this year.
According to the EPA, the RFS
program lays the foundation for     We could not determine whether overlap existed in parties completing third-party
achieving significant reductions    engineering reviews and attest engagements. Program regulations require that
in greenhouse gas emissions         independent third parties complete third-party engineering reviews and attest
from the use of renewable           engagements. Additionally, the EPA’s quality assurance program proposed in a
fuels. The EPA’s Office of Air      new rule would require that independent third parties complete voluntary quality
and Radiation listed RFS            assurance plans to validate RIN generation. Current and proposed regulations do
program implementation as a         not preclude the same third party from completing multiple requirements as well
priority in fiscal year 2013.       as other reporting responsibilities for renewable fuel producers or importers,
                                    allowing for possible overlap. The EPA does not track and monitor
This report addresses the           independence, including whether the same party completes multiple reporting
following EPA Goals or              requirements for a renewable fuel producer or importer. If the same third party
Cross-Cutting Strategies:           completes multiple reporting requirements, the party could potentially review its
                                    own work, which could result in a conflict of interest.
  Taking action on climate
  change and improving air           Recommendations and Planned Corrective Actions
  quality.
  Enforcing environmental           We recommend that the Office of Air and Radiation modify existing electronic
  laws.                             systems to track the submission of reporting requirements to ensure that all
                                    participants comply with applicable RFS program regulations. To assist with
For further information, contact    tracking, we recommend requiring electronic submittal of all reporting
our Office of Congressional and     requirements for the RFS program, particularly third-party engineering reviews
Public Affairs at (202) 566-2391.   and attest engagements. We also recommend that the office determine whether
                                    potential conflicts of interest exist from allowing the same third party to complete
The full report is at:              multiple reporting requirements and monitor potential conflicts for any negative
www.epa.gov/oig/reports/2013/
20130905-13-P-0373.pdf
                                    impacts to program integrity, and revise regulations as appropriate to include
                                    specificity on independence requirements. The Office of Air and Radiation agreed
                                    with our recommendations and is taking steps to address them.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                     THE INSPECTOR GENERAL




                                            September 5, 2013

MEMORANDUM

SUBJECT:       The EPA Should Improve Monitoring of Controls in the
               Renewable Fuel Standard Program
               Report No. 13-P-0373

FROM:          Arthur A. Elkins Jr.

TO:            Janet McCabe, Acting Assistant Administrator
               Office of Air and Radiation

This is our report on the subject examination conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe problems the OIG has
identified and corrective actions the OIG recommends. This report represents the opinion of the OIG and
does not necessarily represent the final EPA position. In accordance with established audit-resolution
procedures, EPA managers will make final determinations on matters in this report.

Action Required

You are not required to provide a written response to this final report because you agreed to all
recommendations and provided corrective actions and planned completion dates that meet the intent of our
recommendations. The recommendations remain open with corrective actions ongoing. Please update the
EPA’s Management Audit Tracking System as you complete the planned corrective actions for these
recommendations and notify my staff if there is a significant change in the agreed-to corrective actions.
We will post this report on our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Rich Eyermann, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or Eyermann.Richard@epa.gov;
or Patrick Gilbride, director for Risk and Program Performance Audits, at (303) 312-6969 or
Gilbride.Patrick@epa.gov.
The EPA Should Improve Monitoring of Controls                                                                             13-P-0373
in the Renewable Fuel Standard Program


                                  Table of Contents

Chapters
   1    Introduction ......................................................................................................     1

                Purpose .....................................................................................................   1
                Background................................................................................................      1
                Noteworthy Achievements .........................................................................               4
                Scope and Methodology ............................................................................              4

   2    The EPA Should Improve Monitoring of Control Activities
        in the RFS Program ..........................................................................................           6

                The EPA Does Not Currently Monitor Some
                   Internal Control Activities .....................................................................             6
                Conclusion .................................................................................................     9
                Recommendations .....................................................................................            9
                Agency Comments and OIG Evaluation .....................................................                        10

   3    Independence Requirements for Reporting May Not Be Met
        in the RFS Program ..........................................................................................           11

                The EPA Does Not Currently Monitor Overlap in
                   Independence Requirements ...............................................................                    11
                Conclusion .................................................................................................    12
                Recommendation .......................................................................................          12
                Agency Comments and OIG Evaluation .....................................................                        13

   Status of Recommendations and Potential Monetary Benefits .............................                                      14



Appendices
   A    Agency Comments on Draft Report ................................................................                        15

   B    Distribution .......................................................................................................    18
                                             Chapter 1
                                              Introduction
Purpose
                  The U.S. Environmental Protection Agency Office of Inspector General
                  conducted an audit of the Renewable Fuel Standard program as a result of
                  millions of dollars of fraudulently generated Renewable Identification Numbers.
                  We sought to determine whether the EPA has assessed program risks and
                  designed necessary controls in the RFS program.

Background
                  Laws and Regulations

                  The Energy Policy Act of 2005

                  The Energy Policy Act of 20051 amended Section 211 of the Clean Air Act to
                  create the Renewable Fuel Program.2 The EPAct established the first renewable
                  fuel volume mandate in the United States. The original RFS program created
                  under the EPAct was referred to as RFS1 and required that 7.5 billion gallons of
                  renewable fuel be blended into gasoline by 2012. The EPAct required the EPA to
                  promulgate RFS program regulations to ensure that gasoline sold or introduced
                  into commerce in the United States contained an “applicable” volume3 of
                  renewable fuel. The EPAct required the EPA’s regulations to include a credit
                  program that allowed for the generation of an appropriate amount of credits by
                  any person who refines, blends or imports gasoline that contains a quantity of
                  renewable fuel. These credits are referred to as Renewable Identification
                  Numbers, or “RINs.”

                  According to the EPA, the RIN system was developed as a market-based
                  alternative to a direct blending requirement. The RIN system provides obligated
                  parties4 with flexibility in satisfying their responsibility to ensure that a specified
                  volume of renewable fuels is used as transportation fuel in the United States each
                  year. Each RIN generated by a producer or importer of renewable fuel represents
                  a volume of renewable fuel measured in terms of ethanol-equivalent gallons, and
                  each RIN can be transferred from one party to another. The RIN system within
                  the RFS program is a “buyer beware” program, meaning all parties must take

1
  Pub.L. 109-58.
2
  The EPA’s website refers to this program as the Renewable Fuel Standard program, which is what we refer to
throughout our report.
3
  Applicable volume refers to the number of billion gallons of renewable fuel required to be used in a calendar year.
4
  An obligated party is any refiner that produces gasoline or diesel fuel within the 48 contiguous states or Hawaii, or
any importer that imports gasoline or diesel fuel into the 48 contiguous states or Hawaii during a compliance period.


13-P-0373                                                                                                             1
                 steps to verify the validity of RINs they acquire. Additionally, all parties are liable
                 for transferring or using invalid RINs.

                 The Energy Independence and Security Act of 2007

                 The Energy Independence and Security Act of 20075 further amended CAA
                 Section 211 and expanded the RFS program to include diesel in addition to
                 gasoline, and increased the volume of renewable fuel required to be blended into
                 transportation fuel to 36 billion gallons by 2022. EISA also established new
                 categories of renewable fuel and set volume requirements for each one.
                 Additionally, it required the EPA to ensure that each category of renewable fuel
                 emits fewer greenhouse gases than the petroleum fuel it replaces. The RFS
                 program expanded under EISA is referred to as RFS2.

                 Code of Federal Regulations – Regulation of Fuels and Fuel Additives

                 As mentioned above, the EPAct required the EPA to promulgate regulations for
                 the RFS program, which the agency codified in the Code of Federal Regulations
                 in Title 40 – Protection of the Environment, Part 80 – Regulation of Fuels and
                 Fuel Additives, Subpart M – Renewable Fuel Standard (40 CFR 80). The
                 regulations detail RFS program requirements and include some of the controls we
                 discuss later in this report.

                 Proposed Rule – RFS RIN Quality Assurance Program

                 On January 31, 2013, the EPA issued a notice for proposed rulemaking to
                 establish a voluntary quality assurance program for verifying the validity of RINs.
                 The EPA published the proposed rule in the Federal Register on
                 February 21, 2013. The EPA proposed this rule as a result of cases of fraudulently
                 generated RINs which led to inefficiencies and a significant reduction in the
                 overall liquidity in the RIN market. The proposed rule establishes an additional
                 control in the RFS program that would create a new category of regulated entities
                 – third-party auditors – that can execute the EPA-approved Quality Assurance
                 Plans to validate RIN generation. QAP auditors would register with the EPA and
                 have their QAPs approved by the agency.6 A QAP is a list of elements that an
                 independent third-party auditor would check to verify the validity of the RINs
                 generated by a renewable fuel producer or importer. The QAPs would be facility
                 specific and could be performed under two voluntary alternative compliance
                 approaches – Option A and Option B. The current “buyer beware” approach in the
                 RFS program continues as an option under the proposed rule. The following
                 provides a brief overview of both QAP options:



5
 Pub.L. 110-140.
6
 The EPA is proposing that the quality assurance program would be applicable at the beginning of 2013 and, as of
June 19, 2013, the EPA has already pre-registered QAPs for six companies.


13-P-0373                                                                                                          2
                   Option A           More rigorous – much of the monitoring performed on a continuous
                                      basis.
                                                                                            7
                                      Provides obligated parties with an affirmative defense if they meet
                                      certain criteria.
                                      Obligated parties would not replace invalid RINs; instead, RINs not
                                      replaced by the producer or importer would be replaced by the auditor
                                                                                       8
                                      who verified the RINs up to a certain threshold.

                   Option B           Continuous monitoring not required – most of the monitoring would be
                                      done on a quarterly basis.
                                      Also provides obligated parties with an affirmative defense if they
                                      meet certain criteria.
                                      Obligated parties would be required to replace any invalid RINs not
                                      replaced by the renewable fuel producer or importer.

                 The EPA is also proposing a number of new regulatory requirements that will
                 modify exporter provisions of the RFS program to try to ensure that an
                 appropriate number and type of RINs are retired whenever renewable fuel is
                 exported. Also, the EPA is proposing new regulatory provisions to address RINs
                 that become invalid after being sold by a renewable fuel producer or importer.

                 Fraud Cases

                 The EPA has pursued and is continuing to pursue enforcement actions against
                 renewable fuel producers and importers that generated invalid RINs. The
                 following describes three cases involving fraudulently created RINs:

                    Clean Green, LLC        The owner generated and sold over 32 million RINs, amounting
                                            to approximately $9 million, without producing or importing any
                                            renewable fuel. The owner was found guilty of wire fraud, money
                                            laundering, and violating the CAA on June 25, 2012, and was
                                            sentenced to 12 years in prison.
                    Absolute Fuels,         The owner generated over 48 million invalid biomass-based
                    LLC                     diesel RINs without producing any qualifying renewable fuel and
                                            transferred the majority of these RINs to others. The owner pled
                                            guilty to an indictment on counts of wire fraud, money
                                            laundering, and violating the CAA, and was sentenced to 188
                                            months (nearly 16 years) in prison for selling more than
                                            $40 million in fraudulent RINs.
                    Green Diesel, LLC       The EPA issued a Notice of Violation on April 30, 2012, alleging
                                            the company generated more than 60 million invalid biomass-
                                            based diesel RINs without producing any qualifying renewable
                                            fuel and transferred the majority of these invalid RINs to others.




7
  An affirmative defense means that the obligated party would be held harmless against civil violations for
transferring or retiring invalid RINs if the RINs were verified under a QAP.
8
  To reduce the costs associated with the Option A QAP, the EPA is proposing a cap on RIN replacement for
Option A auditors. The EPA is proposing to cap the auditor’s RIN replacement responsibility at 2 percent of
Option A RINs verified by the auditor in the current year and the previous 4 years.


13-P-0373                                                                                                     3
            The RFS Program’s Effect on Greenhouse Gas Emissions

            According to the EPA, the RFS program lays the foundation for achieving
            significant reductions in greenhouse gas emissions from the use of renewable
            fuels. The agency estimates that the RFS program will reduce greenhouse gas
            emissions by 138 million metric tons by 2022. The EPA’s Office of Air and
            Radiation listed the implementation of the RFS program as a priority in fiscal year
            2013.

            The EPA’s Organization

            The mission of the Office of Transportation and Air Quality, within the EPA’s
            Office of Air and Radiation, includes reducing air pollution and greenhouse gas
            emissions from mobile sources and the fuels that power them as well as
            advancing clean fuels. OTAQ administers the RFS program.

            The EPA’s Office of Enforcement and Compliance Assurance works with the
            regional offices, state and tribal governments, and other federal agencies to
            enforce the nations’ environmental laws, including the CAA. Within OECA, the
            Office of Civil Enforcement develops and prosecutes administrative civil cases.
            OECA’s Office of Criminal Enforcement, Forensics, and Training provides
            investigative services on violations of environmental laws.

Noteworthy Achievements
            The EPA has worked with external RFS program stakeholders to develop
            additional controls to reduce fraud in the program. Prior to issuing the notice for
            proposed rulemaking, the EPA sought industry perspectives on possible controls
            to include in the new rule. In addition, the EPA continues to work with industry as
            it pre-approves QAPs prior to the agency’s issuance of the final rule.

Scope and Methodology
            We conducted this audit from November 2012 to June 2013 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objective. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our audit objective.

            To determine whether the EPA has assessed program risks and designed
            necessary controls in the RFS program, we reviewed relevant laws and
            regulations to understand the complexities of the program as well as the EPA’s
            responsibilities over it. These laws and regulations include the CAA, EPAct,
            EISA, and 40 CFR 80 Subpart M. We also interviewed staff from OTAQ, as well
            as OECA’s Office of Civil Enforcement and Office of Criminal Enforcement,


13-P-0373                                                                                      4
            Forensics, and Training, to further understand the RFS program and each office’s
            roles and responsibilities. In addition, we reviewed information from the closed
            fraud cases and also reviewed the proposed rule on the RFS RIN quality
            assurance program. We also reviewed previous OIG and Government
            Accountability Office reports relevant to our audit.

            We focused the scope of our audit on internal controls over RINs created by
            producers and importers of renewable fuel. We focused on this because producers
            perpetrated the fraud in the three cases discussed earlier in this chapter.
            To test key controls we selected two samples:

               1. Documentation of third-party engineering reviews. We selected a
                  random sample from a list of renewable fuel producers who produced
                  renewable fuel in calendar year 2012 and determined whether
                  documentation of third-party engineering reviews existed for selected
                  producers.

               2. Documentation of attest engagements. We selected a random sample
                  from a list of renewable fuel producers and importers who generated RINs
                  in calendar year 2011. We determined whether attest engagements were
                  documented and whether they contained information specified within the
                  RFS program regulations.

            We pulled both samples from lists based on information entered into the EPA
            Moderated Transaction System. We did not perform testing over data entered into
            EMTS or the quality of the data because we only used this information to identify
            samples for our verification of documentation. We do not believe this limitation
            affected our findings and conclusions.




13-P-0373                                                                                   5
                                             Chapter 2
                  The EPA Should Improve Monitoring of
                   Control Activities in the RFS Program
                   The EPA has assessed risks and implemented a number of control activities in the
                   RFS program through regulations. The main control activities we identified are
                   independent third-party engineering reviews, the EMTS, and attest engagements.
                   However, we identified that the agency does not meet the control standard for
                   monitoring some of the control activities. The EPA does not track submission of
                   third-party engineering reviews or annual attest engagements because the agency
                   lacks a monitoring system. Until the EPA tracks submitted materials, the agency
                   cannot be sure that program participants comply with applicable regulations,
                   which affects program integrity and could lead to additional fraud cases.

The EPA Does Not Currently Monitor Some Internal Control Activities
                   The Government Accountability Office’s Standards for Internal Control in the
                   Federal Government9 describes the implementation of internal control as a key
                   factor in helping achieve agencies’ missions and program results. Internal control
                   provides reasonable assurance on effective and efficient operations, and that the
                   agency complies with applicable laws and regulations. Internal control also serves
                   as the first line of defense in safeguarding assets and preventing and detecting
                   fraud. Control standards include assessing program risk, establishing control
                   activities to ensure actions are taken to address risk, and monitoring performance.

                   The EPA has assessed risks and implemented a number of control activities
                   through regulations. Based on a review of regulations and relevant laws,
                   we identified the following as main control activities in the RFS program:
                   independent third-party engineering reviews, the EMTS, and attest engagements.

                   Independent Third-Party Engineering Reviews

                   The RFS program regulations require renewable fuel producers to submit to the
                   EPA an independent third-party engineering review 60 days before generating
                   RINs, and update the review every 3 years thereafter.10 The reviews must include
                   a description of the types of renewable fuels or ethanol that the producer intends
                   to produce at the facility, and that the facility is capable of producing these types
                   of renewable fuels without significant modifications. Producers must also update
                   engineering reviews if they make changes to their facility that would allow them
                   to produce a type of renewable fuel not covered in their previous engineering
                   review.

9
    GAO/AIMD-00-21.3.1, November 1999.
10
    Third-party engineering reviews are required under RFS2 but were not required under RFS1.


13-P-0373                                                                                              6
            OTAQ has a process in place for receiving and reviewing independent third-party
            engineering reviews. A producer must first set up an account and self-register for
            the RFS program via the EPA’s Central Data Exchange. The producer must then
            submit their registration package, including the third-party engineering review, to
            OTAQ via hard copy for review. OTAQ has a contractor conduct an initial
            examination of the engineering review and other registration information.
            OTAQ staff then performs a final review prior to approving the producer to
            conduct transactions within EMTS. We reviewed a sample of third-party
            engineering reviews and confirmed that all of the files contained an accepted
            engineering review.

            Although OTAQ has a process for receiving and reviewing third-party
            engineering reviews, OTAQ does not currently track the submission of
            engineering reviews electronically. OTAQ has manually tracked the registration
            dates of producers in the past, but has not updated this list since early 2012.
            Additionally, OTAQ has not tracked the submission of required 3-year updates to
            engineering reviews. However, according to OTAQ, by the time we issued our
            draft report, OTAQ had developed a spreadsheet for tracking 3-year updates.

            The EPA Moderated Transaction System

            Under RFS1, the EPA tracked RINs using a 38-digit number. According to
            OTAQ, the agency found the 38-digit number confusing and management of the
            number cumbersome, prone to administrative errors, and susceptible to potentially
            illegitimate activity. Under the RFS2 regulations the EPA mandated the use of
            EMTS to screen the generation and transfer of RINs between renewable fuel
            producers, importers, exporters, obligated parties and other RIN-owners.
            Users must submit registration information, including independent third-party
            engineering reviews for producers, prior to EMTS registration. OTAQ explained
            that RINs can exist only in EMTS and compared it to a bank that holds accounts
            of RINs. OTAQ also explained that parties wishing to buy and sell RINs meet in
            an outside market and agree on a trade prior to entering it into EMTS. For EMTS
            to accept a RIN trade, the trade numbers must match on both the buyer’s and
            seller’s ends. According to OTAQ, EMTS has helped reduce data input errors that
            occurred when producers recorded the 38-digit RIN number.

            An OTAQ director explained that EMTS allowed the agency to put additional
            controls in place for the RFS program. For example, EMTS only allows a
            renewable fuel producer to create RINs for a type of renewable fuel they are
            registered to create. EMTS also prevents an obligated party from using retired,
            expired or duplicate RINs to meet their renewable volume obligations. In
            addition, EMTS allows a party to lock its RINs, which prevents RINs from being
            sold to other parties so that a party does not trade an invalid RIN. Locking RINs
            also helps to ensure that an obligated party has enough RINs to meet its renewable
            volume obligation. EMTS also allows a party to block RINs from a specific fuel




13-P-0373                                                                                     7
                  producer, importer, or facility. Finally, as the RFS program is a “buyer beware”
                  program, the EPA’s EMTS User’s Guide11 includes the following language:

                          Regulated parties are urged to conduct due diligence investigations
                          and exercise caution when conducting Renewable Identification
                          Number (RIN) transactions. Neither EPA nor its systems,
                          including the EPA Moderated Transaction System (EMTS), certify
                          or validate RINs or make any provision for parties who, despite
                          good faith, transfer or receive invalid RINs. As specified in the
                          regulations at 40 CFR 80.1431(b)(2), invalid RINs cannot be used
                          to achieve compliance with the Renewable Volume Obligations of
                          an obligated party or exporter, regardless of the party’s good faith
                          belief that the RINs were valid at the time they were acquired.
                          Additionally, the regulations at 40 CFR 80.1460(b)(2) prohibit the
                          creation or transfer to any person of a RIN that is invalid.

                  Attest Engagements

                  The RFS program regulations include annual attest engagement requirements that
                  obligated parties, exporters, renewable fuel producers, RIN-generating importers
                  and other parties that own RINs must complete. The requirements differ from
                  party to party and must be completed by an independent certified public
                  accountant or firm of such accountants. The certified public accountant or firm
                  is to perform an agreed-upon procedures attest engagement of required
                  documentation, including RIN generation reports, RIN transaction reports and
                  product transfer documents, RIN activity reports, and third-party engineering
                  reviews for renewable fuel producers. Each party subject to these requirements
                  must submit the attest engagement to the EPA by May 31 of the year following
                  the compliance year.

                  OTAQ and OECA have a process in place for receiving and reviewing attest
                  engagements. Parties mail attest engagements to the EPA in hard copy form with
                  other reporting information. OTAQ receives attest engagements, scans all
                  information into a mail log, and then boxes up the reports and sends them to the
                  OECA Air Enforcement Division in the EPA’s Region 8 office in Denver,
                  Colorado. The Air Enforcement Division has one environmental protection
                  specialist who sorts through and reads attest engagements. The specialist might
                  communicate with the auditor who performed the attest engagement, and in some
                  instances the specialist may note potential violations.

                  While OECA maintains the attest engagements files, neither OTAQ nor OECA
                  tracks whether all required parties submit attest engagements and if the
                  engagements contained all required elements. We sampled 21 attest engagements
                  from a list of producers and importers and found:


11
     EPA420-B-12-031a, August 2012.


13-P-0373                                                                                            8
                   OECA was able to provide attest engagements for 16 of the 21 samples,
                   with the other five missing. OECA stated that OTAQ’s mail log does not
                   indicate that the EPA received these missing reports and noted that it was
                   possible that they were never submitted.

                   Of the 16 attest engagements provided, three missed some requirements
                   listed in the RFS regulations, such as information on feedstocks and
                   third-party engineering reviews.

            OTAQ stated that, in the past, they wanted to require electronic submissions for
            the 3-year updates to engineering reviews but could not accomplish this as
            resources were focused on other tasks. Both OTAQ and OECA indicated that they
            are resource constrained. Until the EPA tracks the submission of independent
            third-party engineering reviews and attest engagements, the agency cannot be sure
            that all participants of the program comply with applicable regulations. This
            affects program integrity and could lead to additional fraud cases.

            The EPA is taking steps to better track RFS program submissions. The EPA
            recently published a Federal Register notice requiring that attest engagements for
            calendar year 2012 be submitted electronically by May 31, 2013, rather than hard
            copy submissions. OTAQ also indicated that they are moving toward electronic
            submission for engineering reviews and expect to implement this by the end of
            2013. Electronic submissions could also allow OTAQ to run reports on submittals
            as well as additional queries to analyze data.

Conclusion
            While the EPA has control activities in place over the RFS program, monitoring
            control activities is important to ensure that the program works as intended and
            parties submit required information. The EPA could more easily monitor control
            activities by requiring electronic submittal of all RFS reporting requirements.

Recommendations
            We recommend that the assistant administrator for the Office of Air and
            Radiation:

               1. Modify existing electronic systems to track the submission of reporting
                  requirements to ensure that all participants comply with applicable RFS
                  program regulations.

               2. To assist with tracking, require electronic submittal of all reporting
                  requirements for the RFS program, particularly third-party engineering
                  reviews and attest engagements.




13-P-0373                                                                                       9
Agency Comments and OIG Evaluation
            The agency agreed with our recommendations. The agency noted that as of
            May 2013 it began requiring attest engagement reports to be submitted
            electronically, and it is on track to begin the electronic collection of engineering
            reviews by the end of 2013. Appendix A contains the agency’s complete response
            to our draft report.




13-P-0373                                                                                     10
                                    Chapter 3
            Independence Requirements for Reporting
               May Not Be Met in the RFS Program
              During our audit, we could not determine whether overlap existed in parties
              completing third-party engineering reviews and attest engagements. The RFS
              program regulations and proposed rule require that independent third parties
              complete third-party engineering reviews, attest engagements and QAPs.
              The RFS program regulations do not preclude the same party from completing
              multiple requirements as well as other reporting responsibilities for renewable
              fuel producers or importers, allowing for possible overlap. The EPA does not
              track and monitor independence, including whether the same party completes
              multiple reporting requirements for a renewable fuel producer or importer. If the
              same third party completes multiple reporting requirements, the party could
              potentially review its own work, which could result in a conflict of interest.

The EPA Does Not Currently Monitor Overlap in Independence
Requirements
              Within the RFS program regulations, both third-party engineering reviews and
              attest engagements have independence requirements. The third-party engineering
              review is required to be conducted by a professional engineer who is independent
              of the renewable fuel producer or foreign ethanol producer, or any subsidiary or
              employee of the renewable fuel producer or foreign ethanol producer. RFS
              program regulations require an independent certified public accountant or firm to
              perform attest engagements. The accountant may complete requirements with the
              assistance of internal auditors who are employees or agents of the refiner or
              importer. A refiner or importer may satisfy the attest engagement requirements if
              an auditor who is an employee completes the attestation. The internal auditor
              must be certified by the Institute of Internal Auditors and complete the internal
              audits in accordance with the Codification of Standards for the Professional
              Practice of Internal Auditing.

              In addition to requirements currently in the RFS program regulations, in the
              notice for proposed rulemaking signed on January 31, 2013, the EPA proposes
              requiring that the auditor performing the QAP be independent of the renewable
              fuel producer or foreign ethanol producer, or any subsidiary or employee of the
              renewable fuel producer or foreign ethanol producer.

              During our audit, we could not determine whether overlap existed in parties
              completing third-party engineering reviews and attest engagements. We sampled
              third-party engineering reviews and attest engagements and were unable to
              determine whether overlap existed in parties submitting these reports and whether
              any potential independence issues existed. We could identify the auditor that


13-P-0373                                                                                       11
            completed the attest engagement, but we were not able to determine what other
            services, if any, the auditor provided. We could also identify the engineer that
            completed the third-party engineering review.

            The regulations and proposed new rule do not preclude the same party from
            completing multiple reporting requirements, allowing for possible overlap and
            potential conflicts of interest. For example, the regulations and proposed rule
            allow the same individual or firm to conduct the third-party engineering review,
            attest engagement, and QAP audit for a renewable fuel producer as long as they
            meet the other requirements in the regulations. In addition, the regulations do not
            prohibit an agent who completes other reporting responsibilities (i.e., in EMTS
            and in quarterly and annual reports) for a renewable fuel producer from
            completing the other reporting requirements.

            The EPA does not track and monitor overlap in services to determine whether
            potential conflicts of interest exist. An OTAQ compliance division director
            explained that there is a lack of a definition of independence. OTAQ staff also
            explained that some businesses which conduct attest engagements currently say
            they cannot perform a QAP for the same company because they are not
            independent, while others say they are independent and can complete both
            requirements. If the same third party completes multiple reporting requirements,
            the party could potentially review its own work, which could result in a conflict of
            interest.

Conclusion
            To help ensure the goals and integrity of the RFS program, parties completing
            reporting requirements must be independent. Whether third parties must be
            independent from each other remains to be determined. By tracking the third
            parties that complete RFS program reporting requirements, the EPA could
            determine whether any potential conflicts between third parties adversely impact
            RFS program integrity and adjust the program accordingly, if needed.

Recommendation
            We recommend that the assistant administrator for the Office of Air and
            Radiation:

               3. Track reporting submissions to determine whether potential conflicts of
                  interest exist from allowing the same third party to complete multiple
                  reporting requirements and monitor the potential conflicts to determine
                  whether they negatively impact RFS program integrity. Based on that
                  determination, revise regulations as appropriate to include specificity on
                  whether the same third party can conduct multiple reviews or reporting
                  requirements for the same producer or importer.



13-P-0373                                                                                      12
Agency Comments and OIG Evaluation
            The agency provided a qualified agreement with our third recommendation. In our
            draft report, our third recommendation required that the EPA:

                   Track reporting submissions to determine whether potential
                   conflicts of interest exist as a result of allowing the same third
                   party to complete multiple reporting requirements. Based on that
                   determination, revise regulations as appropriate to include
                   specificity on whether the same third party can conduct multiple
                   reviews or reporting requirements for the same producer or
                   importer.

            We discussed that recommendation with agency staff and, based on that
            discussion, revised our language accordingly. As the EPA notes in its response to
            our draft report, we made this revision to our recommendation so that, in the
            future, the agency can determine whether it finds a greater degree of
            noncompliance where third parties are not independent from each other. If the
            agency decides that the same party may not fulfill multiple roles, the agency
            indicated that it will put in safeguards to ensure that parties meet independence
            requirements.

            Appendix A contains the agency’s complete response to our draft report.




13-P-0373                                                                                  13
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                   POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                       Planned
    Rec.    Page                                                                                                      Completion   Claimed    Agreed-To
    No.      No.                           Subject                            Status1        Action Official             Date      Amount      Amount

     1        9     Modify existing electronic systems to track the             O        Assistant Administrator,     06/30/2015
                    submission of reporting requirements to ensure                      Office of Air and Radiation
                    that all participants comply with applicable RFS
                    program regulations.

     2        9     To assist with tracking, require electronic submittal       O        Assistant Administrator,     12/31/2013
                    of all reporting requirements for the RFS program,                  Office of Air and Radiation
                    particularly third-party engineering reviews and
                    attest engagements.

     3       12     Track reporting submissions to determine whether            O        Assistant Administrator,     06/30/2015
                    potential conflicts of interest exist from allowing the             Office of Air and Radiation
                    same third party to complete multiple reporting
                    requirements and monitor the potential conflicts to
                    determine whether they negatively impact RFS
                    program integrity. Based on that determination,
                    revise regulations as appropriate to include
                    specificity on whether the same third party can
                    conduct multiple reviews or reporting requirements
                    for the same producer or importer.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0373                                                                                                                                            14
                                                                                     Appendix A

                      Agency Comments on Draft Report


                                            August 1, 2013

MEMORANDUM

SUBJECT:           Response to Office of Inspector General Draft Project No. OA-FY13-0009
                   “The EPA Should Improve Monitoring of Controls in the Renewable Fuel
                         Standard Program,” dated July 2, 2013

FROM:              Janet G. McCabe
                   Acting Assistant Administrator

TO:                Arthur A. Elkins, Jr.
                   Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the agency’s overall position, along with its position on each
of the report recommendations.

The agency agrees with report recommendations 1 and 2 and we have provided high-level
intended corrective actions and estimated completion dates to the extent we can. The emphasis of
these two recommendations is on electronic reporting and tracking of third-party controls in the
Renewable Fuel Standard (RFS) program, specifically third-party engineering reviews and attest
engagements. As reflected in the report, the Office of Transportation Air Quality has manually
tracked these controls in the past but had limited resources to implement electronic tracking. As
of May 2013, the agency began requiring attest engagement reports to be submitted
electronically12, and we are on track to begin the electronic collection of engineering reviews by
the end of 2013. The system functionality that allows us to track the electronic submissions will
be part of future EPA Moderated Transaction System (EMTS) development that has a targeted
completion date of FY 2015 Q3.

With regard to recommendation 3, concerning independence requirements associated with the
third-party reporting and the agency’s tracking of third-party submissions, the agency is in partial
or qualified agreement with the recommendation, as explained below. Based on discussions with
OIG staff, it is our understanding that the intent of this recommendation is not necessarily that
the agency require third parties to be independent from each other (for performing services for a
given producer or importer). Rather, our understanding is that OIG’s recommendation is that the
agency track whether or not third parties performing such services for each producer or importer
are independent from one another, so that in the future the agency can determine whether or not

12
     78 FR 23927; April 23, 2013.


13-P-0373                                                                                        15
we find a greater degree of noncompliance in the RFS program where third parties are not
independent from each other versus the degree of noncompliance that we find where third parties
are independent from each other.

The agency expects to make a policy decision concerning third-party independence in the final
rule to establish a voluntary quality assurance program (QAP) for verifying the validity of
renewable identification numbers. In the QAP proposal, the agency sought comment on the value
of requiring separate, independent third parties versus the benefit of reduced costs from
consolidating roles and responsibilities and not requiring independence. If the agency decides
that it may be appropriate for the same third party to conduct multiple reviews and reporting
requirements (e.g., engineering reviews, attest engagements, and QAP audits) the Agency will
track and monitor the potential conflicts to determine if they negatively impact RFS program
integrity consistent with recommendation 3. On the other hand, if the Agency decides that the
same party may not fulfill multiple roles, the agency will put in safeguards to ensure the
independence requirements are met. EMTS development to support either approach has a
targeted completion date of FY 2015 Q3.

AGENCY’S OVERALL POSITION

The OIG has worked collaboratively with my staff to make recommendations that we mutually
agree are helpful to improve monitoring of controls in the RFS program.

AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

No.   Recommendation                          High-Level Intended              Estimated
                                              Corrective Action(s)             Completion by
                                                                               Quarter and FY
1     Modify existing electronic systems      1. Incorporate into              3rd Quarter
      to track the submission of reporting    development and                  FY 2015
      requirements to ensure that all         modifications to EMTS and
      participants comply with applicable     associated data systems.
      RFS program regulations

2     To assist with tracking, require        2.1 Attest engagements           2.1 May 31, 2013
      electronic submittal of all reporting   completed. Electronic
      requirements for the RFS program,       collection is already required
      particularly third-party engineering    as of May 2013.
      reviews and attest engagements                                           2.2 1st Quarter
                                              2.2 Engineering Reviews –        FY 2014
                                              deployment of electronic
                                              template




13-P-0373                                                                                        16
3     Track reporting submissions to            3. Incorporate into          3rd Quarter FY
      determine whether potential               development and              2015
      conflicts of interest exist as a result   modifications to EMTS, and
      of allowing the same third party to       associated data systems.
      complete multiple reporting
      requirements. Based on that
      determination, revise regulations as
      appropriate to include specificity on
      whether the same third party can
      conduct multiple reviews or
      reporting requirements for the same
      producer or importer

CONTACT INFORMATION

If you have any questions regarding this response, please contact John Weihrauch, Fuels
Compliance Center Director of the Office of Transportation and Air Quality’s Compliance
Division, at
(202) 343-9477.

Attachment

cc:    Betsy Shaw
       Joel Beauvais
       Chris Grundler
       Byron Bunker
       Mary Manners
       John Weihrauch
       Venu Ghanta
       Maureen Hingeley
       Luke Stoltz
       Patrick Gilbride
       Erin Barnes-Weaver




13-P-0373                                                                                     17
                                                                              Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Assistant Administrator for Enforcement and Compliance Assurance
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrator, Office of Air and Radiation
Principal Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Director, Office of Transportation and Air Quality, Office of Air and Radiation
Director, Office of Transportation and Air Quality, Compliance Division, Office of Air
       and Radiation
Director, Air Enforcement Division, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance




13-P-0373                                                                                  18
